August 5, 2008

MICHAEL J. NAPPI
EXECUTIVE DIRECTOR, INTERNATIONAL OPERATIONS

SUBJECT:      Audit Report – Mail Condition Reporting at International
              Service Centers Capping Report (Report Number NO-AR-08-005)

This capping report summarizes the results of our audits of mail condition reporting at
four of the five International Service Centers (ISCs) (Project Number 08XG010NO000).
The objective was to identify opportunities to improve mail condition reporting at ISCs
nationwide. This is our fifth and final report on mail condition reporting at ISCs. Click
here to go to Appendix A for additional information about this audit.

Conclusion

Based on our reviews, there were opportunities to improve mail condition reporting. We
found that the San Francisco and Los Angeles, California; Miami, Florida; and Chicago,
Illinois (J.T. Weeker) ISCs reported mail counts in a timely manner. However, the mail
condition reports were often incomplete and inaccurate.

•   Timely reporting -- The four ISCs submitted mail condition reports timely.
    Personnel performed their respective mail condition counts and provided the mail
    condition data to in-plant support for consolidation into the Web Mail Condition
    Reporting System (WebMCRS). As required, the reports were available by 7:30
    a.m. daily for management to discuss any operational issues with headquarters
    executives.

•   Incomplete reporting -- Mail condition reporting at all four ISCs was incomplete as
    the ISCs did not account for 60,404 mailpieces. Click here to go to Appendix B,
    Table 1 for more details.

•   Inaccurate reporting -- Mail condition reporting was inaccurate as three of the four
    ISCs reported 37,033 mailpieces in the plan failure category, whereas they should
    have reported an additional 108,634 mailpieces. Click here to go to Appendix B,
    Table 2 for more details.

The incomplete and inaccurate reporting occurred because personnel at the facilities
did not adhere to the policies and procedures for identifying, collecting, reviewing, and
reporting mail volume according to WebMCRS definitions. We also found instances
where personnel did not process mail according to the service commitments in the
operating plan and used local conversion rates not approved by headquarters officials.
Mail Condition Reporting at International                                    NO-AR-08-005
 Service Centers Capping Report



As a result, management cannot rely on WebMCRS data to make operational and
distribution decisions, identify problems, or analyze operational trends.

During the course of the audits, the Postal Service issued two memorandums on daily
mail condition reporting compliance in response to some of our findings. The first
memorandum1 addressed procedures for counting the mail, specified when counts
should be uploaded into WebMCRS, and restated the WebMCRS category definitions.
The second memorandum2 addressed reporting mail volume.

We recommend the Executive Director, International Operations, direct the plant
managers of the respective International Service Centers to:

      1) Provide training to ensure personnel report the mail condition data based on Web
         Mail Condition Reporting System Training/User Guide definitions and guidance
         from headquarters for identifying (counting), collecting, reviewing, and reporting
         mail volume.

      2) Ensure personnel process the mail according to the service commitments in the
         facility operating plan.

      3) Require in-plant support personnel to use the national conversion rates in the
         Web Mail Condition Reporting System.

Management’s Comments

Management agreed with our findings and recommendations. The Executive Director,
International Operations, agreed to train personnel to report mail condition data based
on Web Mail Condition Reporting System Training/User Guide definitions, direct plant
managers to ensure employees process mail according to the service commitments in
the facility operating plan, and require the use of national conversion rates. We have
included management’s comments in their entirety in Appendix C.

Evaluation of Management’s Comments

Management’s comments are responsive to the recommendations and the actions
taken should correct the issues identified in the findings. In subsequent
correspondence, management informed us they have already corrected the deficiencies
identified in our report and established ongoing follow-up processes to ensure
compliance. For example, training on mail condition reporting began June 30, 2008 and
will be conducted bi-annually. In addition, plant managers will ensure service
commitments are met on a daily basis. Finally, management provided all sites with the


1
    Daily Mail Condition Reporting Compliance, dated March 9, 2007.
2
    Daily Mail Condition Reporting Compliance (2), dated January 11, 2008.




                                                        2
Mail Condition Reporting at International                                  NO-AR-08-005
 Service Centers Capping Report

national conversion rates on July 24, 2008 and put procedures in place to ensure their
usage.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jim Ballard, Director, Network
Processing, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Paul E. Vogel
    John W. Holden
    Katherine S. Banks




                                            3
Mail Condition Reporting at International                                                     NO-AR-08-005
 Service Centers Capping Report

                     APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service’s Global Business Unit is responsible for mail processing operations
at ISCs. The Postal Service uses WebMCRS as a repository for information on the
status of mail processing operations. WebMCRS provides information to management
officials at all levels for analysis, forecasting, and planning. Specifically, WebMCRS
reports the volume of mail on-hand and the volume of mail ready for processing. It also
reports the volume of mail that has not met operational Clearance Time (CT) and/or
service commitments, according to the facility’s local operating plan. Personnel at the
facility manually count the mail containers when possible or estimate the mail count and
enter data in WebMCRS.3 Personnel should count all mail associated with the facility
(regardless of the amount) in its respective WebMCRS category (on-hand, plan failure,
late arriving, delayed processing, and delayed dispatch).

DEFINITIONS OF WEB MAIL CONDITION REPORTING SYSTEM MAIL
CATEGORIES

•   On-Hand Mail – the total of all available mail at the beginning of the day, by
    designated operation within the facility, regardless of service commitment. Available
    mail includes, but is not limited to:

                Mail in the vehicle yard.

                Mail in transit between local or auxiliary processing facilities.

                Mail at the receiving dock that is waiting to be unloaded or is in the
                 process of being unloaded.

                Mail on the workroom floor, in the staging and storage areas, or ahead of
                 or in or between operations.

                All managed mail or area distribution volume.

•   Plan Failure – mail that enters an operation prior to its Critical Entry Time (CET) but
    is not processed by the line operation CT.

•   Late Arriving – mail received after the facility CET for the corresponding service
    commitment regardless of its processing status.



3
  National standard conversion rates determine mail inventories. However, WebMCRS does not require conversion
to mailpieces prior to input. Employees enter volume by container and mail type and the system automatically
converts the inventory to mailpieces.




                                                    4
Mail Condition Reporting at International                                                                 NO-AR-08-005
 Service Centers Capping Report

•      Delayed Processing – mail that arrives at a facility prior to the CET but is not
       processed and finalized in time to be dispatched on the designated Dispatch of
       Value (DOV) to meet the programmed delivery day. This includes mail recovered
       within the facility from downstream operations after CT that will not meet its intended
       service commitment.

•      Delayed Dispatch – occurs when the mail is processed, finalized, and on the
       platform or in its designated dispatch area awaiting dispatch, but is not dispatched
       on its designated DOV trip.

There are five ISCs that processed about 858 million first handling pieces (FHP)4 in
fiscal year (FY) 2007. See Chart 1 for the relative percentages that each ISC
processed.

                           Chart 1. ISC Volume as a Percentage of Total Mail
                                      Volume Handled – FY 2007




                                                                         Los Angeles
                                                                             7%           San Francisco
                                                                                              13%

                                                                                                 Miami
                                                                                                  6%



                      New York
                        56%
                                                                                           Chicago
                                                                                            18%




OBJECTIVE, SCOPE, AND METHODOLOGY

This report summarizes the results of our recent reviews at ISCs in San Francisco and
Los Angeles, California; Miami, Florida; and Chicago, Illinois (J.T. Weeker). The audit
objective was to identify opportunities to improve mail condition reporting at the ISCs
nationwide. To accomplish the objective, we analyzed each facility’s WebMCRS


4
    FHP – letters, flats, and parcels sorted in a local post office for the first time.




                                                               5
Mail Condition Reporting at International                                      NO-AR-08-005
 Service Centers Capping Report

performance to identify trends and potential issues and interviewed Postal Service
Headquarters personnel.

We conducted this audit from October 2007 through August 2008 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management officials on May 9, 2008, and included their
comments where appropriate.

PRIOR AUDIT COVERAGE

                                            Final Report Date
                            Report
   Report Title             Number                                  Report Results*
Mail Condition            NO-AR-07-         August 20, 2007      Mail Condition Report was
Reporting at the          006                                    submitted timely. However,
San Francisco                                                    the data contained in this
International                                                    report was sometimes
Service Center                                                   incomplete and inaccurate.
Mail Condition            NO-AR-07-         September 20, 2007   Mail Condition Report was
Reporting at the          009                                    submitted timely and data
Miami International                                              contained in this report was
Service Center                                                   generally complete and
                                                                 accurate.
Mail Condition            NO-AR-07-         September 24, 2007   Mail Condition Report was
Reporting at the          010                                    submitted timely and data
Los Angeles                                                      contained in this report was
International                                                    generally complete and
Service Center                                                   accurate. However,
                                                                 opportunities existed to better
                                                                 report on bound parcels and
                                                                 plan failures.
Mail Condition            NO-AR-08-         March 13, 2008
                                                                 Mail Condition Report was
Reporting at the          001
                                                                 submitted timely. However,
J.T. Weeker
                                                                 the data contained in this
(Chicago)
                                                                 report was sometimes
International
                                                                 incomplete and inaccurate.
Service Center


                      *These reports did not contain any monetary impact.




                                                  6
Mail Condition Reporting at International                                           NO-AR-08-005
 Service Centers Capping Report

                              APPENDIX B: DETAILED ANALYSIS

Incomplete Reporting

We concluded there were opportunities to improve mail condition reporting. We found
the mail condition reports at all four of the ISCs were incomplete as they did not account
for 60,404 mailpieces. See Table 1 for more details. Specifically:

•     None of the facilities had procedures in place for identifying all of the respective
      WebMCRS categories.

•     Facility personnel did not process mail according to the service commitments in the
      operating plan.

•     There were instances when the mail condition data was reported in the comments
      section in lieu of being correctly reported as a line item.

•     In-plant support personnel did not report the plan failures volume given to them on
      the floor count sheets because they assumed the mail would be processed and
      make its DOV.

                                  Table 1. Incomplete Reporting

                                                       Volume That
                                                       Should Have
                                    Volume ISC        Been Reported
                                    Reported In       Based on OIG       How OIG Discovered
          ISC Location              WebMCRS              Analysis       Underreported Volume
                                                                      Analysis of ISC supporting
    Xxx Xxxxxxxxx, Xxxxxxxx                   0               6,628
                                                                      count sheets.
                                                                      OIG count of containers at
    Xxxxx, Xxxxxxx                            0               1,406
                                                                      the facility.
                                                                      On July 25 and 26, 2007,
                                                                      we found mail on the floor
    Xxx Xxxxxxx, Xxxxxxxx                     0              38,852
                                                                      dated July 23 and 24,
                                                                      2007, respectively.
                                                                      Analysis of ISC supporting
    Xxxxxxx, Xxxxxxxx                         0              13,518
                                                                      count sheets.
                          Total                              60,404


Inaccurate Reporting

Based on our reviews, we concluded there were opportunities to improve the mail
condition reporting. We found three of the four ISCs reported 37,033 mailpieces in the




                                                  7
   Mail Condition Reporting at International                                        NO-AR-08-005
    Service Centers Capping Report

   plan failure category, whereas they should have reported an additional 108,634
   mailpieces. See Table 2 for more information. Specifically:

       •   Plan failures were reported incorrectly because personnel either did not
           accurately account for how much mail they had received prior to the CET, report
           the mail volume remaining at the CT, or report plan failures.

       •   Local conversion rates were used, but not approved by headquarters officials.

                                     Table 2. Inaccurate Reporting

                                                                Volume That
                                                                Should Have
                              Volume ISC                       Been Reported
                              Reported In      Volume Not      Based on OIG     How OIG Discovered
     ISC Location             WebMCRS           Counted           Analysis     Underreported Volume
                                                                               Analysis of supporting
Xxx Xxxxxxx, Xxxxxxxx                30,313        89,107            119,420
                                                                               ISC count sheets.
                                                                               Analysis of supporting
Xxxxx, Xxxxxxx                        6,532            7,598          14,130
                                                                               ISC count sheets.
                                                                               Analysis of supporting
Xxxxxxx, Xxxxxxxx                        188       11,929             12,117
                                                                               ISC count sheets.
                   Totals            37,033       108,634            145,667


   These conditions occurred because personnel did not follow WebMCRS requirements
   and guidance from headquarters when identifying, collecting, reviewing, and reporting
   mail condition data. As a result, management cannot rely on WebMCRS data to make
   operational and distribution decisions, identify problems achieving operational targets or
   analyze operational trends.

   We confirmed our observations by examining mail condition data reported in
   WebMCRS. For example, our analysis of the Xxxxxxx ISC over a 40-day period
   showed the actual plan failure volume was over 17 times more than reported in
   WebMCRS. See Table 3 for more information.




                                                   8
Mail Condition Reporting at International                                NO-AR-08-005
 Service Centers Capping Report



     Table 3. Xxxxxxx ISC Reported Plan Failures Versus Actual Plan Failures

                                       Day of              Reported      Actual Plan
                        Date            Week              Plan Failure     Failure
                    Oct. 1, 2007    Monday                       2,956         3,439
                    Oct. 2, 2007    Tuesday                          0         1,146
                    Oct. 3, 2007    Wednesday                        0         5,272
                    Oct. 4, 2007    Thursday                       110         5,291
                    Oct. 5, 2007    Friday                           0        13,146
                    Oct. 6, 2007    Saturday                         0         3,671
                    Oct. 7, 2007    Sunday                         160        28,069
                    Oct. 8, 2007    Monday                         448        13,519
                    Oct. 9, 2007    Tuesday                          0           965
                    Oct. 10, 2007   Wednesday                        0             0
                    Oct. 11, 2007   Thursday                        64         6,293
                    Oct. 12, 2007   Friday                       3,622        14,986
                    Oct. 13, 2007   Saturday                     1,388        23,819
                    Oct. 14, 2007   Sunday                       3,368        16,505
                    Oct. 15, 2007   Monday                           0         7,385
                    Oct. 16, 2007   Tuesday                          0           452
                    Oct. 17, 2007   Wednesday                        0        19,349
                    Oct. 18, 2007   Thursday                     1,156        11,363
                    Oct. 19, 2007   Friday                         876        11,469
                    Oct. 20, 2007   Saturday                     1,259         6,698
                    Oct. 21, 2007   Sunday                       1,060         3,122
                    Oct. 22, 2007   Monday                           0         5,898
                    Oct. 23, 2007   Tuesday                          0             0
                    Oct. 24, 2007   Wednesday                        0         6,074
                    Oct. 25, 2007   Thursday                     1,408        23,092
                    Oct. 26, 2007   Friday                         998        10,088
                    Oct. 27, 2007   Saturday                       801        20,846
                    Oct. 28, 2007   Sunday                         820        15,963
                    Oct. 29, 2007   Monday                           0         9,236
                    Oct. 30, 2007   Tuesday                          0             0
                    Oct. 31, 2007   Wednesday                        0        13,068
                    Nov. 1, 2007    Thursday                     1,028        18,946
                    Nov. 2, 2007    Friday                         232         8,581
                    Nov. 3, 2007    Saturday                         0         8,163
                    Nov. 4, 2007    Sunday                           0         6,082
                    Nov. 5, 2007    Monday                           0         4,669
                    Nov. 6, 2007    Tuesday                          0             0
                    Nov. 7, 2007    Wednesday                        0         8,849
                    Nov. 8, 2007    Thursday                        80         9,112
                    Nov. 9, 2007    Friday                         108         3,005
                              Reported                          21,942
                      Should Have Reported                                   367,631




                                                       8
                                            Restricted Information
Mail Condition Reporting at International                                              NO-AR-08-005
 Service Centers Capping Report



Similarly, 3 months prior to our on-site observations, the Xxx Xxxxxxxxx ISC reported
plan failures only nine times, while 3 months after our on-site observation the ISC
reported plan failures 36 times. See Chart 2.

          Chart 2. Xxx Xxxxxxxxx ISC Occurrences of Reported Plan Failure


                           Plan Failures Recorded On WebMCRS
                       From October 1, 2006, through March 31, 2007
                                                     OIG Review
       55,000

       50,000

       45,000

       40,000

       35,000

       30,000

       25,000

       20,000

       15,000

       10,000

        5,000

           0

                October 06    November 06   December 06     January 07   February 07        March 07




                                               9
Mail Condition Reporting at International                      NO-AR-08-005
 Service Centers Capping Report

                           APPENDIX C: MANAGEMENT’S COMMENTS




                                            9
